CERTIFICATE OF SERVICE
I certify that I sent a true and correct copy of this Petition for Writ of Certiorari by
United States mail to the following:
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Schuchat, Cook and Werner
Attn: George O. Suggs
1221 Locust St # 250
St. Louis, MO 63103

This

day of 41(a4L

I

23

